              Actions Are Needed to Eliminate Inequities in
                 the Employment Tax Liabilities of Sole
                Proprietorships and Single-Shareholder
                            S Corporations

                                     May 2005

                       Reference Number: 2005-30-080




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                         May 20, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT



      FROM:                          Pamela J. Gardiner
                                     Deputy Inspector General for Audit

      SUBJECT:                       Final Audit Report - Actions Are Needed to Eliminate Inequities
                                     in the Employment Tax Liabilities of Sole Proprietorships and
                                     Single-Shareholder S Corporations (Audit # 200430022)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      administration of self-employment tax laws. The overall objective of this review was to
      determine whether the existing tax laws, tax regulations, and IRS policies and practices
      ensure fairness in the administration of self-employment tax laws for similarly situated
      taxpayers.
      In summary, inequities exist between the employment tax liabilities of sole proprietors
      and the employment tax liabilities of the owners of single-owner S corporations.1 The
      employment tax methodology applied to S corporations does not properly address the
      facts and circumstances related to the predominant ownership structure of today’s
      S corporations.2 This condition is largely the result of Revenue Ruling3 59-2214 issued


      1
        In 1958, the Congress established Subchapter S of the Internal Revenue Code (I.R.C.) that enabled small
      businesses, including sole proprietorships, to form corporations owned by 10 or fewer shareholders. Electing this
      form of business organization, commonly referred to as an S corporation, exempts the profits from corporate
      taxation and allows the profits to “pass through” to the shareholders who are then responsible for individual income
      taxes on the profits.
      2
        This report addresses issues similar to those discussed in the Joint Committee on Taxation (JCT) report Options to
      Improve Tax Compliance and Reform Tax Expenditures JCS-02-05 (January 27, 2005). Despite similarities in
      conclusions and recommendations, this report was developed independently without knowledge of the JCT study.
      3
        A Revenue Ruling represents the IRS’ official interpretation of the I.R.C. as it applies to a particular set of facts.
      Revenue Rulings are intended to promote the uniform application of the tax laws and assist taxpayers in attaining
      maximum voluntary compliance.
      4
        1959-1 C. B. 225; Rev. Rul. 59-221 (January 1959).
                                                          2

by the IRS in 1959 because the 1958 statute that established S corporations in tax law5
was silent on the employment tax treatment of the corporate profits.
When the Revenue Ruling was issued, no S corporation tax returns had yet been filed,
so the IRS based its ruling on assumptions regarding the ownership structure of
S corporations. Apparently assuming that a majority of S corporations would involve
multiple shareholders, the IRS concluded only shareholders actively operating the
business should be subject to employment taxes and only on amounts received for their
services. In a multishareholder environment, it would have been reasonable to assume
that the salary of the business operator would be set by a consensus of shareholders at
a level reflecting the market value of the operator’s services.
What apparently was not anticipated was that most S corporations would eventually
consist of sole proprietors who chose to incorporate without expanding ownership to
include additional shareholders. In Tax Year (TY) 2000, 78.9 percent of all
S corporations were either fully owned by a single shareholder (69.4 percent) or more
than 50 percent owned by a single shareholder6 (9.5 percent). Also apparently
unanticipated was the fact that, when there is only one shareholder controlling and
operating an S corporation, the determination of a salary is unilateral, highly subjective,
and influenced by the knowledge that a higher salary will result in higher employment
taxes and therefore lower profits.
One of the criteria for judging a tax system is whether similarly situated taxpayers are
treated the same. Given equal amounts of income subject to employment taxes,
owners of single-shareholder S corporations and sole proprietors are similarly situated
for employment tax purposes. However, a fundamental and significant inequity is
created between sole proprietors and owners of single-shareholder S corporations by
the manner in which taxable income is determined, since sole proprietors pay
employment taxes as a percent of all profits, while owners of single-shareholder
S corporations pay employment taxes on only the portion of profits they unilaterally
select as their salaries.
The 1959 Revenue Ruling that created this inequity has had three major detrimental
effects on the tax system. First, the S corporation form of ownership has become a
multibillion dollar employment tax shelter7 for single-owner businesses. In 1959, the
maximum potential loss of employment tax revenue from allowing owners of
single-shareholder S corporations to select their own salaries would have been only
$8.3 million ($49.1 million in Calendar Year 2000 dollars). In TY 2000, the cost was
$5.7 billion due to historical increases in employment tax rates and the ability of nearly
80 percent of S corporation owners to minimize their employment taxes by minimizing
their salaries.



5
  Pub. L. No. 85-866, 72 Stat. 1650 (1958).
6
  Majority ownership provides such shareholders with the ability to make unilateral decisions, such as setting officer
salaries.
7
  A tax shelter is the way of organizing a business to reduce or eliminate taxes.
                                                        3

Second, Revenue Ruling 59-221, in effect, places the burden on the IRS to prove that
the salary chosen by the owner of a single-shareholder S corporation is not
“reasonable” (i.e., commensurate with the services the shareholder provided to the
S corporation). Dealing with this issue on a case-by-case basis puts a severe strain on
the limited resources of the IRS. In TY 2000 alone, 36,000 single-shareholder
S corporations with profits of $100,000 or more passed through total profits of
$13.2 billion to their sole owners without paying any employment taxes. The cost of the
IRS resources needed to effectively combat such a large problem on a case-by-case
basis would be prohibitive.
Third, trends point to continued erosion of the employment tax base and related
reductions in Social Security and Medicare revenues that employment taxes produce.
The number of single-shareholder S corporations (as reported on U.S. Income Tax
Return for an S Corporation (Form 1120S)) grew from 1,030,716 in TY 1994 to
1,684,861 in TY 2001, a 63.5 percent growth rate. Single-shareholder S corporations
accounted for 26.4 percent of the combined profits of sole proprietorships and
single-shareholder S corporations in TY 1994 and 36.1 percent in TY 2001. As
single-owner business profits shift to the S corporation structure, the amount of
salaries selected are steadily declining as a percent of corporate profits. Owners of
single-shareholder S corporations paid themselves salaries subject to employment
taxes that equaled only 47.1 percent of their profits in TY 1994, which fell to just
41.5 percent by TY 2001. In contrast, unincorporated sole proprietors pay
self-employment taxes on all of their profits.8
To eliminate the employment tax shelter for most S corporations, increase
Social Security and Medicare employment tax revenues by $30.8 billion and
$30.2 billion respectively between Calendar Years 2006 and 2010, provide for equitable
employment tax treatment of taxpayers, and reduce the burden on IRS examination
resources, we recommended the IRS Commissioner inform the Assistant Secretary of
the Treasury for Tax Policy of the detrimental effects discussed in this report of
Revenue Ruling 59-221 that was apparently issued under the historically inaccurate
assumption that most S corporations would involve multiple shareholders. The IRS
Commissioner should consult with Treasury regarding whether the detrimental effects of
Revenue Ruling 59-221 should be reversed through the issuance of new regulations or
through the drafting of new legislation, either of which should subject all ordinary
operating gains of an S corporation that accrue to a shareholder (including the
shareholder’s spouse and dependent children) holding more than 50 percent of the
stock in the S corporation to employment taxes.




8
 For purposes of determining employment taxes, the profits of sole proprietorships are calculated as gross income
minus expenses and an amount equal to the employer’s share of Federal Insurance Contributions Act (FICA) taxes.
S corporations also deduct the employer’s share of FICA taxes from their income for determining profits.
                                            4

Management’s Response: The Commissioner, Small Business/Self-Employed
(SB/SE) Division, disagreed with the report recommendations but agreed there
were problems related to compensation paid to S corporation officers and that
differences exist between the employment tax liabilities of sole proprietorships and
single-shareholder S corporations. The Commissioner, SB/SE Division, did not agree
that IRS Revenue Ruling 59-221 was the cause of these problems. In discussions and
in management’s response, the IRS has expressed its belief that, since it was based
upon corporate employment taxation statutes and regulations in effect prior to the
creation of S corporations, Revenue Ruling 59-221 confirms that Self-Employment
Contributions Act (SECA) taxes do not apply to S corporation shareholders. The IRS
believes legislative rather than regulatory changes could help reduce the problems they
experience in relation to the employment taxes of single-shareholder S corporations and
believes any such legislation should also address possible similar inequities in other
types of business structures. However, the IRS also stated that simplifying the
assessment of employment taxes, as we recommended, would not be consistent with
the underlying principles of employment tax statutes in connection with the performance
of services.
Because the Commissioner, SB/SE Division, does not agree the source of the problem
was Revenue Ruling 59-221 and believes it is important to consider the problem in the
context of other business entities, the Commissioner, SB/SE Division, did not agree with
the specific recommendations in this report or with the related outcome measures.
Regarding the outcome measures, the Commissioner, SB/SE Division, expressed
concerns that the outcome measures did not take into account that some taxpayers
may react to the implementation of our recommendations by converting S corporations
to other business structures. Concern was also expressed that our outcome measures
did not reflect the impact of additional employment taxes that may be paid by owners of
single-shareholder S corporations having multiple sources of income subject to
employment taxes. Management’s complete response to the draft report is included as
Appendix V.
Office of Audit Comment: We disagree with the IRS position that Revenue
Ruling 59-221 confirmed rather than established that SECA taxes should not apply to
single-shareholder S corporations, and we continue to believe the current employment
tax inequities are the result of the Revenue Ruling. The historical file for this Revenue
Ruling shows the Revenue Ruling was prompted by a 1958 question from a taxpayer
regarding whether or not self-employment taxes (applicable to sole proprietors) would
apply to the profits of the newly-created S corporations. Rather than addressing the
case of a sole proprietor choosing to become a single-shareholder S corporation,
the IRS response discussed a multi-shareholder S corporation and concluded that
self-employment taxes should not apply to the profits of such S corporations. The IRS
applied the concepts supporting this decision to all S corporations, regardless of the
number of shareholders, when it issued Revenue Ruling 59-221 in 1959.
We are encouraged the IRS recognizes that changes in tax law may be advisable as it
relates to the compensation of owners of single-shareholder S corporations. While we
                                           5

support the IRS desire to eliminate through such legislation similar employment tax
inequities in other business structures, identifying and quantifying such possible
additional inequities were beyond the scope of this review. In addition, we do not
believe correction of the current inequities discussed in the report should be delayed
while a search for possible additional inequities is conducted. Nor do we believe current
inequities should continue out of apprehension that an unquantifiable number of
taxpayers may change their business structures to pursue new strategies to avoid
employment taxes.
In response to IRS concerns related to the possible impact of taxpayers having multiple
sources of employment-taxable income, we have reduced our original 5-year estimate
of total additional employment tax revenues to $61 billion. See Appendix IV for
additional information. In addition, we have added notes (a) through (c) to
Recommendation 2 on page 18 to clarify our position on various uncertainties
expressed in IRS management’s response.
While we still believe our recommendations are worthwhile, we do not intend to elevate
our disagreement concerning them to the Department of the Treasury for resolution.
Copies of this report are also being sent to IRS managers affected by the report.
Please contact me at (202) 622-6510 if you have questions or Philip Shropshire, Acting
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(215) 516-2341.
  Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
               Proprietorships and Single-Shareholder S Corporations




                                                Table of Contents


Background ............................................................................................... Page 1
Billions of Dollars in Self-Employment Taxes Are Being Avoided
Each Year As Sole Proprietors Increasingly Choose to Incorporate ......... Page 3
         Recommendations 1 and 2: ...........................................................Page 18

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 21
Appendix II – Major Contributors to This Report ....................................... Page 22
Appendix III – Report Distribution List ....................................................... Page 23
Appendix IV – Outcome Measures............................................................ Page 24
Appendix V – Management’s Response to the Draft Report ..................... Page 31
   Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                Proprietorships and Single-Shareholder S Corporations

                                  The Federal Insurance Contributions Act (FICA)1 and the
Background
                                  Self-Employment Contributions Act (SECA)2 require the
                                  payment of employment taxes to the Federal Government
                                  that fund both the Social Security (i.e., old age, survivor,
                                  and disability insurance or OASDI) and Medicare
                                  (i.e., hospital insurance or HI) trust funds. The OASDI
                                  portion of both FICA and SECA taxes is 12.4 percent of
                                  taxable wages or self-employment income, up to a
                                  maximum earnings limit that is sometimes adjusted by
                                  statute. For Tax Year (TY) 2000, this limit was $76,200; it
                                  has increased to $90,000 for TY 2005. The HI portion of
                                  both FICA and SECA taxes is 2.9 percent of total taxable
                                  income.
                                  Employers withhold FICA taxes from the wages of
                                  employees, with matching amounts paid by the employers.
                                  Employees do not pay FICA taxes on the amount paid by
                                  their employers on their behalf. Sole proprietors
                                  (i.e., individuals who own unincorporated businesses) must
                                  pay SECA taxes3 on profits from the operation of their
                                  businesses. The SECA tax law treats all profits (except for
                                  an amount equal to the employer portion of FICA) as if they
                                  were wages, and the proprietor pays the equivalent of both
                                  the employer and employee portions of FICA on the profits.
                                  In 1958, the Congress established Subchapter S of the
                                  Internal Revenue Code (I.R.C.)4 that enabled small
                                  businesses, including sole proprietorships, to form
                                  corporations owned by 10 or fewer shareholders.5 Electing
                                  this form of business organization, commonly referred to as

                                  1
                                    26 U.S.C. Chapter 21 (2004).
                                  2
                                    26 U.S.C. § 1401 (2004).
                                  3
                                    Individuals are generally subject to SECA taxes if they have net
                                  earnings from self-employment (excluding church employee income) of
                                  $400 or more. Net earnings from self-employment generally means the
                                  net income earned by any self-employed person from a trade or business
                                  and any individual’s distributive share of partnership net income or loss
                                  attributable to the partnership’s trade or business.
                                  4
                                    26 U.S.C. Chapter 1, Subchapter S (2004).
                                  5
                                    In TY 2000, S corporations were permitted to have up to
                                  75 shareholders. A husband and wife are considered one shareholder for
                                  purposes of determining the number of shareholders in an S corporation.
                                  Generally, S corporation shareholders are individuals, but certain trusts,
                                  estates, charities, and qualified retirement plans may also be
                                  S corporation shareholders.
                                                                                                   Page 1
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                               an S corporation, exempts the profits from corporate
                               taxation and allows the profits to “pass through” to the
                               shareholders who are then responsible for individual income
                               taxes on the profits received. Shareholders who actively
                               operate the business are subject to employment taxes on
                               compensation received for their services.
                               Sole proprietorships and S corporations were, respectively,
                               the first and second most prevalent types of business
                               organizations in TY 2000. For TY 2000, there were
                               approximately 17.9 million sole proprietorships that
                               reported approximately $245 billion in profits from business
                               operations. Also for TY 2000, approximately 2.9 million
                               S corporations reported approximately $200 billion in
                               profits from business operations.
                               To perform the audit, we analyzed TY 2000 data collected by
                               the Internal Revenue Service (IRS) Statistics of Income (SOI)
                               function regarding S corporations and compared ownership
                               information reported by S corporations to information on the
                               IRS Individual Returns Transaction File6 for TY 2000.
                               TY 2000 was the most current year for which specific data
                               was available from multiple sources at the time audit planning
                               commenced. We did not attempt to identify partnerships
                               and corporations other than S corporations that may be
                               solely-owned or majority-owned by a single individual.
                               Data analysis was conducted in our Cincinnati office. We
                               did not visit any IRS offices to perform the audit. The audit
                               was performed in accordance with Government Auditing
                               Standards during the period July 2004 through
                               February 2005. We did not test management controls since
                               they were not significant to our audit objectives. Detailed
                               information on our audit objective, scope, and methodology
                               is presented in Appendix I. Major contributors to the report
                               are listed in Appendix II.




                               6
                                 An IRS file containing data transcribed from each tax return, as well as
                               computer-generated information used to verify the accuracy of the
                               transcribed data.
                                                                                                 Page 2
    Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                 Proprietorships and Single-Shareholder S Corporations

                                   The employment tax methodology applied to
Billions of Dollars in
                                   S corporations does not properly address the facts and
Self-Employment Taxes Are
                                   circumstances related to the predominant ownership
Being Avoided Each Year As
                                   structure of today’s S corporations.7 This condition is
Sole Proprietors Increasingly
                                   largely the result of Revenue Ruling8 59-2219 issued by the
Choose to Incorporate
                                   IRS in 1959 because the 1958 statute establishing
                                   S corporations in tax law10 was silent on the employment tax
                                   treatment of S corporation profits.
                                   When the Revenue Ruling was issued, no S corporation tax
                                   returns had yet been filed, so the IRS based its ruling on
                                   assumptions regarding the ownership structure of
                                   S corporations. Since the law allowed up to 10 shareholders
                                   in an S corporation, the IRS apparently assumed that a
                                   majority of S corporations would involve multiple
                                   shareholders when it concluded only shareholders actively
                                   operating the business should be subject to employment
                                   taxes and only on amounts received for their services. In a
                                   multishareholder environment, it would have been
                                   reasonable to assume the salary of the business operator
                                   would be set by a consensus of shareholders at a level
                                   reflecting the market value of the operator’s services.
                                   What apparently was not anticipated was that most
                                   S corporations would eventually consist of sole proprietors
                                   who chose to incorporate without expanding ownership to
                                   include other shareholders. In TY 2000, 78.9 percent of all
                                   S corporations were either fully owned by a single
                                   shareholder (69.4 percent) or more than 50 percent owned11


                                   7
                                     This Treasury Inspector General for Tax Administration conclusion, as
                                   well as others throughout the report, address issues similar to those
                                   discussed in the Joint Committee on Taxation (JCT) Report Options to
                                   Improve Tax Compliance and Reform Tax Expenditures JCS-02-05
                                   (January 27, 2005). Despite similarities in conclusions and
                                   recommendations, this report was developed independently and without
                                   prior knowledge of the JCT study.
                                   8
                                     A Revenue Ruling represents the IRS’ official interpretation of the
                                   I.R.C. as it applies to a particular set of facts. Revenue Rulings are
                                   intended to promote the uniform application of the tax laws and assist
                                   taxpayers in attaining maximum voluntary compliance.
                                   9
                                     1959-1 C. B. 225; Rev. Rul. 59-221 (January 1959).
                                   10
                                      Pub. L. No. 85-866, 72 Stat. 1650 (1958).
                                   11
                                      Majority ownership provides such shareholders with the ability to
                                   make unilateral decisions, such as setting officer salaries.
                                                                                                  Page 3
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                               by a single shareholder (9.5 percent).12 Also apparently
                               unanticipated was the fact that, when there is only one
                               shareholder controlling and operating an S corporation, the
                               determination of a salary is unilateral, highly subjective, and
                               influenced by the knowledge that a higher salary will result
                               in higher employment taxes and therefore lower profits.
                               One of the criteria for judging a tax system is whether
                               similarly situated taxpayers are treated the same.13 Given
                               equal amounts of income subject to employment taxes,
                               owners of single-shareholder S corporations and sole
                               proprietors are similarly situated for employment tax
                               purposes.14 However, a fundamental and significant
                               inequity is created between sole proprietors and owners of
                               single-shareholder S corporations by the manner in which
                               taxable income is determined. Sole proprietors pay
                               employment taxes as a percent of all profits, while owners
                               of single-shareholder S corporations pay employment taxes
                               on only the portion of profits they unilaterally select as their
                               salaries.
                               The 1959 Revenue Ruling that, due to unanticipated
                               predominance of single-shareholder S corporation
                               ownership structures, created the inequity between sole
                               proprietors and single-shareholder S corporations has had
                               three major detrimental effects on the tax system:


                               12
                                  These statistics reflect the impact of spousal ownership. A husband
                               and wife are considered one shareholder for purposes of determining the
                               number of shareholders in an S corporation.
                               13
                                  JCT report Description and Analysis of Proposals to Replace the
                               Federal Income Tax JCS-18-95 (June 5, 1995).
                               14
                                  Both types of taxpayers are subject to OASDI taxes of 12.4 percent on
                               taxable income that does not exceed the annual earnings limit. This
                               limit increases each year with increases in the national average wage
                               index. For TY 2000, the limit was $76,200. In TY 2005, the limit is
                               $90,000. Both types of taxpayers are subject to HI taxes of 2.9 percent
                               on total taxable income. Both types of taxpayers deduct one-half of
                               their employment taxes from their incomes for determining their
                               individual income tax liabilities on their business profits. A sole
                               proprietor deducts the employment taxes from the total income reported
                               on U.S. Individual Income Tax Return (Form 1040). The owner of an
                               S corporation deducts the employment taxes from the income reported
                               on U.S. Income Tax Return for an S Corporation (Form 1120S), thereby
                               reducing the pass-through income that must be reported on the
                               Form 1040.
                                                                                               Page 4
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                    1) The S corporation form of ownership has become a
                                       multibillion dollar employment tax shelter15 for
                                       single-owner businesses ($5.7 billion in TY 2000
                                       alone).
                                    2) Officer compensation issues have become a drain on
                                       limited IRS examination resources.
                                    3) Trends point to continued erosion of the
                                       employment tax base and resulting reductions in
                                       Social Security and Medicare revenues.
                               The IRS Revenue Ruling inadvertently created a
                               multibillion dollar employment tax shelter
                               The 1959 Revenue Ruling appears to influence the
                               salary-setting decisions by the owners of single-shareholder
                               S corporations. As shown in Figure 1, the salaries declared
                               by the owners of S corporations have been steadily
                               declining over the years. Owners of single-shareholder
                               S corporations paid themselves salaries subject to
                               employment taxes that equaled only 47.1 percent of their
                               profits in TY 1994, which fell to just 41.5 percent by
                               TY 2001. In contrast, unincorporated sole proprietors pay
                               employment taxes on all of their profits.16




                               15
                                  A tax shelter is the way of organizing a business to reduce or
                               eliminate taxes.
                               16
                                  For purposes of determining employment taxes, the profits of sole
                               proprietorships are calculated as gross income minus expenses and an
                               amount equal to the employer’s share of FICA taxes. S corporations
                               also deduct the employer’s share of FICA taxes from their income for
                               determining profits.
                                                                                              Page 5
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                      Figure 1: Officer Salaries Declared by Single-Shareholder
                                         S Corporations As a Percentage of Operating Profits
                                                         (TYs 1994 – 2001)17

                                                  PERCENTAGE OF CORPORATE PROFITS DECLARED AS OFFICER SALARIES
                                                  SUBJECT TO EMPLOYMENT TAXES

                                    48%

                                    47%

                                    46%

                                    45%

                                    44%

                                    43%

                                    42%

                                    41%
                                             94


                                                      95


                                                                96


                                                                         97


                                                                                   98


                                                                                            99


                                                                                                      00


                                                                                                               01
                                          19


                                                   19


                                                             19


                                                                      19


                                                                                19


                                                                                         19


                                                                                                   20


                                                                                                            20
                               Source: IRS SOI function data.

                               The ability to independently set salary levels also extends to
                               S corporation shareholders who own more than one-half of
                               the corporation’s stock, which in effect allows them the
                               ability to make unilateral decisions, such as setting officer
                               salaries. The ability of a single shareholder of an
                               S corporation to set officer salaries has a significant effect
                               on employment tax receipts. As shown in Figure 2, the
                               amount of employment taxes paid in TY 2000 by
                               single-shareholder S corporations was $5.7 billion less than
                               the SECA taxes that would have been paid if the taxpayers
                               were unincorporated sole proprietors.




                               17
                                 Includes only those S corporations that filed returns reflecting one
                               shareholder for the corporation. Officer compensation reported on the
                               returns is expressed as a percentage of the total of officer compensation
                               and positive net income from the operations of the single-owner
                               S corporations.
                                                                                                                 Page 6
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                Figure 2: Actual FICA Taxation vs. Theoretical SECA Taxation of
                                                   S Corporations (TY 2000)18

                                                 Social Security Taxes         Medicare Taxes

                                    Billions
                                        $14
                                        $12
                                                                                      $5.3
                                        $10
                                         $8
                                                          $2.5
                                         $6
                                         $4                                           $8.3
                                                          $5.4
                                         $2
                                         $0
                                               CURRENT FICA TAX PAID ON     SECA TAX IF APPLIED TO
                                                  OFFICER SALARIES        ACTUAL OPERATING PROFITS



                               Source: Treasury Inspector General for Tax Administration (TIGTA)
                               analysis of IRS Master File19 data.

                               In 1959, the IRS ruling appeared to have limited impact.
                               Just 71,140 S corporations existed in TY 1959 and, of
                               these, only 46,037 reported profits. Since the maximum
                               amount of self-employment tax per individual was just $180
                               in 1959, the maximum potential loss of self-employment tax
                               revenue in 1959 would have been only $8.3 million
                               ($49.1 million in Calendar Year (CY) 2000 dollars).20
                               However, the 1959 ruling does not reflect conditions in
                               today’s business and tax environments. A number of factors
                               have combined to significantly increase the employment tax
                               consequences of the IRS decision.



                               18
                                  Represents the FICA taxes applicable to officer compensation paid,
                               allocated according to the percentage of ownership for those
                               shareholders owning more than 50 percent of the shares of the
                               S corporations. We computed the SECA taxes based upon the total of
                               officer compensation plus the amount of positive net income from the
                               operation of the business, allocated based upon the percentage of
                               ownership. See Appendix IV for additional information.
                               19
                                  The IRS database that stores various types of taxpayer account
                               information. This database includes individual, business, and employee
                               plans and exempt organizations data.
                               20
                                  Assumes that all of the S corporations had only one shareholder and
                               no salaries were paid to shareholders.
                                                                                                     Page 7
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                    •   The SECA tax rate on earnings at or below the
                                        maximum limit was four times higher for TY 2000
                                        than it was for TY 1959.
                                    •   The maximum earnings limit for TY 2000 was
                                        16 times higher than it was for TY 1959.
                                    •   The Medicare tax (which did not exist in 1959) was
                                        assessed on unlimited earnings in TY 2000.
                                    •   The number of S corporations that existed in
                                        TY 2000 was 40 times higher than that in TY 1959.
                                    •   In TY 2000, approximately 54.6 percent of all
                                        S corporations reported to the IRS that they were
                                        owned by a single shareholder.
                                    •   In reality, 78.9 percent of all S corporations
                                        were either fully owned by a single shareholder
                                        (69.4 percent) or majority owned by a single
                                        shareholder (9.5 percent) for TY 2000 when spousal
                                        ownership was taken into account.21
                               Thus, historical increases in employment tax rates and the
                               ability of nearly 80 percent of S corporation owners to
                               minimize their employment taxes by minimizing their
                               salaries combined to transform the original $8.3 million
                               maximum potential self-employment tax revenue cost into
                               an estimated $5.7 billion revenue cost in TY 2000.
                               The IRS has limited resources for combating abuses
                               On a mass scale, it is extremely difficult for the IRS to
                               alleviate the serious problem of self-employment tax
                               avoidance by S corporations. Revenue Ruling 59-221, in
                               effect, places the burden on the IRS to prove that officer
                               compensation was not “reasonable” (i.e., commensurate
                               with the services the shareholder provided to the
                               S corporation). Therefore, the IRS must examine the


                               21
                                 A husband and wife are considered one shareholder for purposes of
                               determining the number of shareholders in an S corporation. To
                               determine actual S corporation ownership, we relied upon data from
                               Shareholder’s Share of Income, Credits, Deductions, etc. (Schedule K-1)
                               of Form 1120S provided by the IRS SOI function and compared those
                               data to spousal information on Form 1040 tax returns filed for TY 2000.
                                                                                              Page 8
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                               S corporation returns and supporting business records to
                               make reasonable compensation determinations.
                               As shown in Figure 3, however, the IRS is able to examine
                               only a small fraction of the S corporation returns that are
                               filed each year. Between Fiscal Years (FY) 1996 and 2003,
                               the examination coverage rates for S corporation returns
                               ranged from a high of 1.04 percent to a low of 0.30 percent
                               in the most recent year.
                                     Figure 3: Examination Rates for S Corporation Returns
                                                      (FYs 1996 – 2003)

                                  Fiscal Year       Returns Examined        Coverage Rate
                                      1996                  19,490               0.92%
                                      1997                  23,898               1.04%
                                      1998                  25,522               1.04%
                                      1999                  21,169               0.81%
                                      2000                  15,200               0.55%
                                      2001                  12,437               0.43%
                                      2002                  11,646               0.39%
                                      2003                   9,695               0.30%
                                Source: TIGTA analysis of IRS data.

                               In addition, Figure 4 shows the IRS examination coverage
                               of S corporation returns in the past 5 years has been
                               insufficient to keep pace with the steady growth in the
                               number of returns filed.




                                                                                         Page 9
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                                                Figure 4: Examination Coverage of S Corporation Returns
                                                                                   (FYs 1988 – 2003)

                                                                           Returns Filed             Returns Examined

                                                                3,500                                                    35




                                                                                                                              RETURNS EXAMINED (IN THOUSANDS)
                                                                3,000                                                    30




                                 RETURNS FILED (IN THOUSANDS)
                                                                2,500                                                    25


                                                                2,000                                                    20


                                                                1,500                                                    15


                                                                1,000                                                    10


                                                                 500                                                     5


                                                                   0                                                     0
                                                                     88

                                                                     89

                                                                     90

                                                                     91

                                                                     92

                                                                     93

                                                                     94

                                                                     95

                                                                     96

                                                                     97

                                                                     98

                                                                     99

                                                                     00

                                                                     01

                                                                     02

                                                                     03
                                                                   19

                                                                   19

                                                                   19

                                                                   19

                                                                   19

                                                                   19

                                                                   19

                                                                   19

                                                                   19

                                                                   19

                                                                   19

                                                                   19

                                                                   20

                                                                   20

                                                                   20

                                                                   20
                               Source: IRS Data Books – Table 11.

                               Making reasonable compensation determinations is a
                               complex and somewhat subjective endeavor that can result
                               in litigation for the IRS. Since the IRS is forced to address
                               the issue of reasonable officer compensation on a
                               case-by-case basis, there are evidently many owners of
                               S corporations who have determined the employment tax
                               savings available from minimizing salaries is worth the risk
                               of an IRS examination.
                               As shown in Figure 5, owners of single-shareholder
                               S corporations vary widely in the amount of risk they wish
                               to assume. As shown in the far left column, many are
                               willing to set their salaries at $0 to maximize their
                               employment tax savings.




                                                                                                                        Page 10
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                                       Figure 5: Variations in Salaries Selected by Owners
                                                        of Single-Shareholder S Corporations (TY 2000)22

                                                            Single-Shareholder S Corporations With Profits                 Operating Profits


                                    Thousands                                                                                        $Billions
                                        500                                                                                           $25


                                                      400                                                                             $20




                                                                                                                                               Operating Profits
                                     S Corporations
                                                      300                                                                             $15


                                                      200                                                                             $10


                                                      100                                                                             $5


                                                       0                                                                              $0
                                                            NE

                                                                  %

                                                                          %

                                                                                 %

                                                                                       %

                                                                                             %

                                                                                                   %

                                                                                                         %

                                                                                                               %

                                                                                                                     %

                                                                                                                           %

                                                                                                                                 L
                                                                                                                               AL
                                                                               29

                                                                                     39

                                                                                           49

                                                                                                 59

                                                                                                       69

                                                                                                             79

                                                                                                                   89

                                                                                                                         99
                                                        O



                                                                      19
                                                                 9
                                                       N

                                                             to



                                                                           to

                                                                                 to

                                                                                       to

                                                                                             to

                                                                                                   to

                                                                                                         to

                                                                                                               to

                                                                                                                     to
                                                                     to
                                                            1



                                                                          20

                                                                                30

                                                                                      40

                                                                                            50

                                                                                                  60

                                                                                                        70

                                                                                                              80

                                                                                                                    90
                                                                 10




                                                                 Percentage of Profits Declared as Salary (TY 2000)

                               Source: TIGTA analysis of IRS Master File Data. These data reflect
                               the impact of S corporation spousal ownership but not majority
                               ownership.

                               Significant amounts of business profits frequently accrue to
                               the owners of single-shareholder S corporations who choose
                               to pay themselves no salaries and, therefore, pay no
                               employment taxes. As shown in Figure 6, approximately
                               36,000 single-shareholder S corporations with profits of
                               $100,000 or more in TY 2000 passed through total profits of
                               $13.2 billion to their owners without paying any
                               employment taxes.




                               22
                                 The profits of the single-shareholder S corporations consist of
                               operating net income as reflected on corporate returns filed plus officer
                               compensation. Officer compensation is included to ensure
                               comparability with sole proprietorships for which similar payments are
                               not deductible for computing net income from operations. Amounts for
                               S corporations are for only those corporations filing returns claiming
                               only one shareholder.
                                                                                                                                       Page 11
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                    Figure 6: Operating Profits of S Corporations That Paid No
                                              Salaries to the Sole Owners (TY 2000)23

                                                      Single-Shareholder S Corporations With Profits
                                                      Profits Sheltered From Employment Taxes
                                Thousands
                                                                                                               $Billions
                                    300                                                                           $14
                                                                                                       $13.2
                                    250                                                                           $12

                                                                                                                  $10
                                    200
                                                                                                                  $8
                                    150
                                                                                                                  $6
                                    100
                                                                                                                  $4
                                    50                                                                            $2
                                                                                                 36,000
                                     0                                                                            $0
                                          UNDER $25,000    $25,000 TO        $50,000 TO      $100,000 AND
                                                            $49,999           $99,999           OVER
                                                 Profit Range for Ow ners Selecting Salary of $0

                               Source: TIGTA analysis of IRS Master File Data. These data reflect
                               the impact of S corporation spousal ownership but not majority
                               ownership.

                               Court records show the IRS can enforce reasonable
                               compensation determinations through costly litigation. For
                               example, in a recent tax court case,24 a veterinarian who was
                               the sole shareholder in his S corporation had received
                               3 years of profits from the business totaling nearly $419,000
                               while declaring no salary for himself, despite the fact the
                               S corporation’s sole source of income was from the services
                               he provided. The court agreed with the IRS that the
                               taxpayer’s profits should be subject to employment taxes.
                               While such successes are helpful, there were 36,000 similar
                               situations (see Figure 6) in TY 2000 alone in which the
                               owners of single-shareholder S corporations took no salaries
                               from the businesses while having over $100,000 in income.


                               23
                                  Figure 6 is composed of those companies represented by the left-most
                               column of Figure 5. The same footnote applies to Figure 6. Profits
                               exempted from employment taxes represent the positive net income
                               from the operation of the single-owner S corporations, as reported on
                               corporate tax returns filed.
                               24
                                  Veterinary Surgical Consultants, P.C. v. Commissioner, 117 T.C. 141
                               (2001).
                                                                                                          Page 12
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                               The cost of the IRS resources needed to effectively combat
                               such a large problem on a case-by-case basis would be
                               prohibitive.
                               If the S corporation owners who now have the ability to set
                               their own salaries were instead subject to employment taxes
                               on their profits, as are unincorporated sole proprietors, we
                               estimate that Social Security and Medicare tax revenues
                               would increase by $30.8 billion and $30.2 billion,
                               respectively, during the 5-year period from CYs 2006
                               to 2010. This change would also allow the IRS to devote
                               scarce compliance resources to examination priorities other
                               than reasonable compensation determinations. See
                               Appendix IV for additional information.
                               Trends indicate continued erosion of the employment
                               tax base
                               The number of single-shareholder S corporations (as
                               reported on U.S. Income Tax Returns for an S Corporation
                               (Form 1120S)) grew from 1,030,716 in TY 1994 to
                               1,684,861 in TY 2001, a growth rate of 63.5 percent. While
                               there may be other reasons for small businesses to choose
                               the S corporation form of organization, the opportunity to
                               choose how much to pay for employment taxes must
                               certainly be a consideration.
                               In fact, advising small businesses to shelter earnings from
                               self-employment taxes through the formation of
                               S corporations has become a cottage industry. A search of
                               the Internet yields multiple sites that offer advice,
                               assistance, and encouragement to sole proprietors to
                               convince them to become S corporations. The sole
                               proprietors are advised they can save thousands of dollars a
                               year in employment taxes simply by incorporating. It is
                               also possible on the Internet to gauge the size of the savings
                               using computer-generated savings amounts based on the
                               user’s entries for anticipated profits and chosen salary
                               levels. Not surprisingly, the lower the salary chosen, the
                               higher the savings become, reaching maximum savings at a
                               salary level of $0.
                               Figure 7 shows the growth in the numbers of
                               single-shareholder and multiple-shareholder S corporations
                               as reported to the IRS on S corporation returns. Although

                                                                                     Page 13
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                               Figure 7 shows that there are far more single-shareholder
                               S corporations than multiple-shareholder S corporations, our
                               analysis of taxpayer data revealed that the imbalance is
                               significantly more pronounced than is shown in Figure 7.
                                                      Figure 7: Growth in Single-Owner and Multiple-Owner
                                                                S Corporations (TYs 1994 - 2001)25

                                                                 ONE SHAREHOLDER      MULTIPLE SHAREHOLDERS

                                                      Millions
                                                       1.70

                                                       1.60

                                                       1.50
                                     S CORPORATIONS




                                                       1.40

                                                       1.30

                                                       1.20

                                                       1.10

                                                       1.00

                                                       0.90
                                                                 1994   1995   1996   1997   1998   1999   2000   2001


                               Source: IRS SOI function. These data do not reflect the impact of
                               S corporation spousal or majority ownership.

                               Approximately 54.6 percent of all S corporations reported
                               that they were owned by a single shareholder in TY 2000.
                               However, this does not reflect the fact that tax law26 treats a
                               husband and wife as 1 shareholder or the fact that ownership
                               of more than 50 percent of a corporation’s stock by a single
                               shareholder gives that shareholder control of business
                               decisions, including the amount of business profits that will
                               be paid to that individual as a salary.
                               By accounting for these factors, we determined that, in
                               TY 2000, 78.9 percent of all S corporations are either
                               owned by a single shareholder (69.4 percent) or
                               majority owned by a single shareholder (9.5 percent).


                               25
                                    Analysis reflects the number of shareholders shown on Forms 1120S.
                               26
                                    26 U.S.C § 1361(c)(1) (2004).
                                                                                                                  Page 14
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                               Figure 8 demonstrates the true predominance of
                               single-shareholder S corporations in TY 2000, as well as the
                               sizable portion of business income related to
                               single-shareholder S corporations. The left-most column in
                               Figure 8 shows the operating profits27 and the volume of
                               S corporations that were either solely owned or solely
                               controlled by a single shareholder. The remaining columns
                               show the S corporations with more diverse ownership.
                                          Figure 8: Number of S Corporations and Operating Profits
                                                    Stratified by Number of Shareholders
                                                                  (TY 2000)

                                                                       Subchapter S Corporations      Operating Profits

                                                       Millions                                                       $Billions
                                                          2.5                                                          $250
                                    Subchapter S Corporations




                                                                2.0                                                    $200




                                                                                                                              Operating Profits
                                                                1.5                                                    $150


                                                                1.0                                                    $100


                                                                0.5                                                    $50


                                                                0.0                                                    $0
                                                                      One   Tw o Three Four    Five   Six   7 to 75
                                                                              Number of Shareholders


                               Source: TIGTA analysis of IRS SOI function and Individual Master File
                               Data. These data reflect the impact of S corporation spousal and
                               majority ownership.

                               The trend toward single-shareholder S corporations may
                               account for the relatively slow growth of business profits
                               that are subject to SECA taxes seen in Figure 9. The
                               average annual growth in net income from the operation of


                               27
                                  For comparability to sole proprietorships, the operating profits shown
                               represent the total positive net income from the operation of the
                               businesses plus officer compensation paid (which is not a deductible
                               item for determining the net income of a sole proprietorship). The total
                               positive net income is from line 21 of Form 1120S.
                                                                                                                            Page 15
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                               single-shareholder S corporations28 between TYs 1994
                               and 2001 was 18.8 percent. The average annual growth in
                               net income from the operation of sole proprietorships was
                               only 4.2 percent during the same period.
                                    Figure 9: Average Annual Growth in Net Operating Income of
                                              S Corporations and Sole Proprietorships
                                                        (TYs 1994 – 2001)


                                         20%


                                         16%         18.8%


                                         12%


                                          8%


                                          4%
                                                                             4.2%

                                          0%
                                               SINGLE-SHAREHOLDER UNINCORPORATED SOLE
                                                 S CORPORATIONS     PROPRIETORSHIPS
                                                 AVERAGE ANNUAL NET INCOME GROWTH
                                                         1994 THROUGH 2001


                               Source: IRS SOI function data. These data do not reflect the impact of
                               S corporation spousal or majority ownership.

                               The continuing migration of sole proprietors to the
                               S corporation structure diverts business profits away from
                               the SECA tax base into S corporations where the amount of
                               FICA taxes that will be generated is significantly less, due
                               to the subjectivity of establishing reasonable officer
                               compensation. Figure 10 shows that single-shareholder
                               S corporations accounted for 26.4 percent of the combined
                               profits of sole proprietorships and single-shareholder
                               S corporations in TY 1994 and 36.1 percent in TY 2001, an
                               increase of nearly 10 percentage points in just 8 years.




                               28
                                 Represents positive net income from business operations minus net
                               deficits as reported on line 21 of Form 1120S. Amounts on line 21 are
                               net of officer compensation which is not a deductible item in
                               determining the net income of sole proprietorships.
                                                                                             Page 16
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                Figure 10: Operating Profits of Incorporated and Unincorporated
                                                   Single-Owner Businesses
                                                      (TYs 1994 – 2001)29

                                          PROFITS OF SINGLE-SHAREHOLDER S CORPORATIONS AS A
                                          PERCENTAGE OF ALL SINGLE-OWNER BUSINESS PROFITS


                                    38%


                                    36%


                                    34%


                                    32%


                                    30%


                                    28%


                                    26%
                                          94


                                                 95


                                                        96


                                                               97


                                                                      98


                                                                             99


                                                                                    00


                                                                                           01
                                        19


                                               19


                                                      19


                                                             19


                                                                    19


                                                                           19


                                                                                  20


                                                                                         20
                               Source: IRS SOI function data. These data do not reflect the impact of
                               S corporation spousal or majority ownership.

                               Recommendations

                               To eliminate the employment tax shelter for most
                               S corporations, increase self-employment tax revenues,
                               provide for equitable employment tax treatment of
                               taxpayers, and reduce the burden on IRS examination
                               resources:

                               29
                                 Represents the total positive net income from the operation of sole
                               proprietorships plus the positive net income from the operation of
                               single-shareholder S corporations. The net income for the
                               single-shareholder S corporations includes officer compensation paid to
                               ensure comparability with sole proprietorships for which similar
                               payments are not deductible for computing net income. Amounts for
                               S corporations are for only those corporations filing returns claiming
                               only one shareholder. No adjustments have been made for spousal or
                               majority ownership. Figure 10 excludes partnerships and corporations
                               other than S corporations that may be solely-owned or majority-owned
                               by a single individual.
                                                                                                Page 17
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                   1. The IRS Commissioner should inform the Assistant
                                      Secretary of the Treasury for Tax Policy of the
                                      detrimental effects discussed in this report of
                                      Revenue Ruling 59-221 that was apparently issued
                                      under the historically inaccurate assumption that
                                      most S corporations would involve multiple
                                      shareholders.
                               Management’s Response: The Commissioner, Small
                               Business/Self-Employed (SB/SE) Division, did not agree
                               with this recommendation. The Commissioner, SB/SE
                               Division, disagrees that Revenue Ruling 59-221 is the cause
                               of the inequities reflected in the report. The issue is not
                               with Revenue Ruling 59-221. In fact, the statutory and
                               judicial laws that form the basis for Revenue Ruling 59-221
                               are still the law today. The Commissioner, SB/SE Division,
                               stated, under current law for S corporations, the issue is how
                               best to determine “reasonable compensation” for application
                               of the FICA tax.
                               Office of Audit Comment: We continue to believe the
                               current employment tax inequities are the result of the
                               Revenue Ruling. The historical file for this Revenue Ruling
                               shows the Revenue Ruling was prompted by a 1958
                               question from a taxpayer regarding whether or not
                               self-employment taxes (applicable to sole proprietors)
                               would apply to the profits of the newly-created
                               S corporations. Rather than addressing the case of a
                               sole proprietor choosing to become a single-shareholder
                               S corporation, the IRS response discussed a
                               multi-shareholder S corporation and concluded that
                               self-employment taxes should not apply to the profits of
                               such S corporations. The IRS applied the concepts
                               supporting this decision to all S corporations, regardless
                               of the number of shareholders, when it issued Revenue
                               Ruling 59-221 in 1959.
                                   2. The IRS Commissioner should consult with the
                                      Assistant Secretary of the Treasury for Tax Policy
                                      regarding whether the detrimental effects of
                                      Revenue Ruling 59-221 should be reversed through
                                      the issuance of new regulations or through the
                                      drafting of new legislation, either of which should
                                      subject all ordinary operating gains of an

                                                                                     Page 18
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                      S corporation that accrue to a shareholder (including
                                      the shareholder’s spouse and dependent children)
                                      holding more than 50 percent of the stock in the
                                      S corporation to employment taxes.
                                          a. SECA taxes should not apply to officer
                                             compensation (if any) on which FICA taxes
                                             are paid.
                                          b. No employment taxes should apply to
                                             S corporations without operating gains.
                                          c. No changes should be made to the current
                                             employment tax treatment of S corporation
                                             minority shareholders.
                               Management’s Response: The Commissioner, SB/SE
                               Division, does not agree with this recommendation. The
                               Commissioner, SB/SE Division, stated new regulations
                               would not affect the fundamental application of employment
                               taxes to S corporations. A recommendation to discuss
                               legislative changes to simply subject to employment tax “all
                               ordinary operating gains of an S corporation that accrue to a
                               shareholder” is not consistent with the principles underlying
                               the employment tax statutes in connection with the
                               performance of services. Nor does it properly recognize the
                               administrative and taxpayer burdens that this legislation
                               may cause or consider the application of employment taxes
                               to other flow-through entities. However, the IRS will
                               continue its outreach efforts to communicate all
                               employment tax provisions as they pertain to each tax
                               entity. As appropriate, the IRS will work with the
                               Department of the Treasury in furtherance of legislation that
                               would resolve the issues in the best interest of tax
                               administration.
                               Because the Commissioner, SB/SE Division, does not agree
                               with our premise that the source of the problem is the
                               revenue ruling and believes it is important to consider the
                               problem in the context of other business entities, the
                               Commissioner, SE/SE Division, does not agree with the
                               specific recommendations of this report and, therefore,
                               cannot agree with the outcome measures. The
                               Commissioner, SB/SE Division, also has concerns with our
                               calculation of the outcome measures. The Commissioner,

                                                                                    Page 19
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                               SB/SE Division, stated the calculation does not take into
                               account that some taxpayers may react to implementation of
                               the proposal by converting S corporations to another entity
                               (such as a C corporation or a limited liability company).
                               The Commissioner, SB/SE Division, also stated our report
                               assumes the S corporation shareholder has no other
                               self-employment income (or FICA tax wages) and does not
                               account for an offset to self-employment taxes for any
                               S corporation that will reflect an ordinary loss.
                               Office of Audit Comment: We disagree with the IRS
                               assertion that Revenue Ruling 59-221 confirmed rather
                               than established that SECA taxes should not apply to
                               single-shareholder S corporations, and we continue to
                               believe that the current employment tax inequities are the
                               result of the Revenue Ruling. However, we are encouraged
                               that the IRS plans to work with the Department of the
                               Treasury in furtherance of legislation that would resolve the
                               issues in the best interest of tax administration.
                               While we support the IRS desire to eliminate through such
                               legislation similar employment tax inequities in other
                               business structures, identifying and quantifying such
                               possible additional inequities were beyond the scope of this
                               review. In addition, we do not believe correction of the
                               current inequities discussed in the report should be delayed
                               while a search for possible additional inequities is
                               conducted. Nor do we believe current inequities should
                               continue out of apprehension that an unquantifiable number
                               of taxpayers may change their business structures to pursue
                               new strategies to avoid employment taxes.
                               In response to IRS concerns related to the possible impact of
                               taxpayers having multiple sources of employment-taxable
                               income, we have reduced our original 5-year estimate of
                               additional employment tax revenues to $61 billion. See
                               Appendix IV for additional information. In addition, we
                               have added notes (a) through (c) to this recommendation to
                               clarify our position on the uncertainties expressed in IRS
                               management’s response.




                                                                                    Page 20
       Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                    Proprietorships and Single-Shareholder S Corporations

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the existing tax laws, tax
regulations, and Internal Revenue Service (IRS) policies and practices ensure fairness in
administering self-employment taxes to all similarly situated taxpayers.
To accomplish this objective, we:
I.        Researched historical tax law changes regarding sole proprietors and S corporations and,
          where possible, identified the reasons for those changes.
II.       Reviewed available IRS studies, reports, and general information regarding
          self-employment taxes and related compliance information, including tax court cases.
III.      Identified and evaluated the characteristics of S corporations by analyzing databases that
          were developed by the IRS Statistics of Income (SOI) function for Tax Year (TY) 2000
          U.S. Income Tax Return for an S Corporation (Form 1120S) and related Shareholder’s
          Share of Income, Credits, Deductions, etc. (Schedule K-1). TY 2000 was the most current
          year for which specific data was available from multiple sources at the time audit planning
          commenced.
          A.     To determine the presence of spousal ownership among the shareholders in
                 S corporations, matched the Schedule K-1 data to the IRS Individual Returns
                 Transaction File1 for TY 2000 to identify the shareholders in the same S corporation
                 that filed jointly or as married filing separately for TY 2000.
          B.     Once the spousal ownership test was completed, identified all shareholders owning
                 more than 50 percent of the stock in an S corporation (regardless of whether the
                 stock was owned by 1 spouse or both).
IV.       Evaluated historical trends regarding both nonfarm sole proprietorships and S corporations
          by analyzing statistics published by the SOI function from 1959 to 2001.
V.        Researched Social Security Administration (SSA) records regarding the historical rates for
          Federal Insurance Contributions Act2 and Self-Employment Contributions Act3 tax rates as
          well as the annual contribution bases for the SSA’s Old-Age, Survivors, and Disability
          Insurance .
VI.       Researched Internet sites for applicable information and advice offered to the public
          regarding employment taxes.

1
  An IRS file containing data transcribed from each tax return as well as computer-generated information used to
verify the accuracy of the transcribed data.
2
  26 U.S.C. Chapter 21 (2004).
3
  26 U.S.C. § 1401 (2004).
                                                                                                           Page 21
   Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                Proprietorships and Single-Shareholder S Corporations

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
William E. Stewart, Audit Manager
Theodore J. Lierl, Lead Auditor
Stanley M. Pinkston, Senior Auditor
James M. Allen, Information Technology Specialist
Joseph C. Butler, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist




                                                                                       Page 22
  Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
               Proprietorships and Single-Shareholder S Corporations

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Business Division SE:S
Chief Counsel CC
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Business Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Government Liaison, and Disclosure, Small Business/Self-Employed
 Division SE:S:CGL&D
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Strategy, Research, and Program Planning, Large and Mid-Size Business Division
 SE:LM:SR
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 23
    Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                 Proprietorships and Single-Shareholder S Corporations

                                                                                                  Appendix IV


                                            Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration for Calendar Years 2006 through 2010. These
benefits will be incorporated into our Semiannual Report to the Congress.
Type and Value of Outcome Measure:

    •   Increased Revenue – Potential; $30.8 billion in increased Social Security tax revenues from
        S corporation shareholders owning more than 50 percent of the stock in the corporations
        (see page 3).

    •   Increased Revenue – Potential; $30.2 billion in increased Medicare tax revenues from
        S corporation shareholders owning more than 50 percent of the stock in the corporations
        (see page 3).
Methodology Used to Measure the Reported Benefit:
To determine the number of solely owned and solely controlled (i.e., a single shareholder with
more than 50 percent ownership) S corporations, we relied on the percentage of ownership
information reflected on Shareholder’s Share of Income, Credits, Deductions, etc.
(Schedule K-1) that was developed by the Internal Revenue Service (IRS) Statistics of Income
(SOI) function for Tax Year (TY) 2000 U.S. Income Tax Return for an S Corporation
(Form 1120S). We enhanced this information by matching the Social Security Numbers (SSN)1
from the Schedules K-1 to an extract from the Individual Master File2 that contained the primary
and secondary SSNs and the filing status from each individual income tax return filed for
TY 2000. If both the primary and secondary SSNs matched one return and both SSNs matched
the Schedules K-1 issued by the same S corporation, we totaled the percentage ownership from
the Schedules K-1 and reduced the number of shareholders shown on the S corporation return by
one.
After this analysis was complete, we identified all S corporations with more than 50 percent
ownership as modified for spousal ownership. To determine the income received by these
taxpayers from their S corporations, we multiplied the total operating profits of the
S corporations by the percentage of ownership of the taxpayers. To determine the operating
profits of the S corporations on a basis equivalent to Self-Employment Contributions Act



1
  The SSN is generally used as a taxpayer identification number that must be used on U.S. Individual Income Tax
Return (Form 1040) and its related schedules.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 24
    Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                 Proprietorships and Single-Shareholder S Corporations

(SECA)3 tax treatment of sole proprietors, we added officer compensation to the net income (or
deficit) from the operation of the trade or business. Although both Federal Insurance
Contributions Act (FICA)4 taxes and SECA taxes are virtually identical on this amount (as
explained on page 3 of this report) and officer compensation is not a deductible amount for
determining operating income for sole proprietors, the change was necessary for clarity of
discussion and SECA tax computations and for comparability of S corporation profits and sole
proprietorship profits. Both the unadjusted operating net income and the amount of officer
compensation were obtained from the TY 2000 Form 1120S database developed by the IRS SOI
function.
To determine the amount of FICA Social Security taxes currently paid by taxpayers owning
more than 50 percent of an S corporation, we multiplied the taxpayer’s percentage of ownership
by the amount of officer compensation for the S corporation and then multiplied the result,
limited to the TY 2000 Social Security income ceiling of $76,200, by 12.4 percent. Our
computations assumed the taxpayer had no other income subject to Social Security taxes. To
determine the amount of FICA Medicare taxes currently paid, we multiplied all of the taxpayer’s
officer compensation by 2.9 percent.
To determine the amount of SECA taxes that would be paid on the taxpayer’s share of the
operating profit from the S corporation, we applied the SECA tax rules to the total of operating
net income plus officer compensation that exceeded zero. In the case of officer compensation
that was partially or wholly in excess of available gains, we computed no SECA taxes on the
portion of the officer compensation that exceeded the available gains. The operating profits were
multiplied by 92.35 percent5 to determine the taxable SECA base. To determine the amount of
SECA taxes that would be assessed on the taxable SECA base, we multiplied the taxpayer’s
operating profits, limited to the TY 2000 Social Security income ceiling of $76,200, by
12.4 percent. Our computations assumed the taxpayer had no other Social Security-taxable
income for the year, but the presence of such income would reduce both taxable FICA income
and taxable SECA income and, thus, would not materially affect the difference between the
FICA and SECA taxation computed by the Treasury Inspector General for Tax Administration
(TIGTA). To determine the amount of SECA Medicare taxes that would be paid, we multiplied
the taxable SECA base by 2.9 percent. To produce national statistics, the record weights6
provided by the SOI function on all TY 2000 Form 1120S database items were applied to all
taxpayer counts and amounts.
To determine the increase or decrease that would result from subjecting S corporations to SECA
taxes, we compared the amount of FICA taxes currently paid on officer compensation to the
amount of SECA taxes that would be assessed if they were applied, instead, to all operating

3
  26 U.S.C. § 1401 (2004).
4
  26 U.S.C. Chapter 21 (2004).
5
  For purposes of determining employment taxes, the profits of sole proprietorships are reduced by an amount equal
to an employer’s share of FICA taxes (7.65 percent) before calculating SECA taxes on the remaining 92.35 percent.
6
  Record weights are values that indicate how many records similar to the sampled record would likely be found if
all records were examined.
                                                                                                          Page 25
   Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                Proprietorships and Single-Shareholder S Corporations

profits. To determine these future amounts, our computer programs totaled all applicable FICA
and SECA amounts and we then expressed these amounts as a percentage of officer
compensation (for FICA taxes) or operating profits (for SECA taxes). The future annual growth
in officer compensation (7.70 percent) and operating profits (9.60 percent) were based upon
average annual increases in those items from TYs 1999 through 2001 according to SOI function
data published by the IRS. While the average annual growth in single-owner S corporation
profits from TYs 1995 through 2001 was 12.77 percent, we used a more conservative average
annual profit growth rate of 9.60 percent for TYs 1999 through 2001 for our analysis to more
closely reflect recent economic conditions.




                                                                                      Page 26
    Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                 Proprietorships and Single-Shareholder S Corporations

                     Table 1: Employment Tax Revenue Losses Before SECA Taxes Can Be Applied
                                          to Single-Owner S Corporations
                                       TY 2000 ACTUAL              TY 2001           TY 2002             TY 2003             TY 2004                 TY 2005
                                       DUE IN CY 2001           DUE IN CY 2002    DUE IN CY 2003      DUE IN CY 2004      DUE IN CY 2005          DUE IN CY 2006
A) Average Annual S Corporation
Officer Compensation Growth                  7.70%                  7.70%              7.70%               7.70%               7.70%                  7.70%
(Actual TY 1999 Through TY 2001)

B) Officer Compensation of Single-
shareholder S Corporations Through     $   84,725,792,926   $ 91,249,678,981      $ 98,275,904,263    $105,843,148,891    $113,993,071,356    $    122,770,537,850
TY 2005 (CY 2006)
C) FICA Old Age, Survivor, and
Disability Insurance (OASDI) Tax
Liability as a Percentage of Profits         6.43%                  6.43%              6.43%               6.43%               6.43%                  6.43%
(OASDI on Actual TY 2000 Officer
Compensation)
D) FICA Hospital Insurance (HI) Tax
Liability as a Percentage of Profits         2.90%                  2.90%              2.90%               2.90%               2.90%                  2.90%
(Actual TY 2000)
E) FICA OASDI Revenue
                                       $    5,444,396,482   $     5,863,615,011   $   6,315,113,367   $   6,801,377,096   $   7,325,083,132   $      7,889,114,534
Anticipated (item B * item C)
F) FICA HI Revenue Anticipated
                                       $    2,457,047,995   $     2,646,240,690   $   2,850,001,224   $   3,069,451,318   $   3,305,799,069   $      3,560,345,598
(item B * item D)
G) Total FICA Revenue Anticipated
(item E + item F)                      $    7,901,444,477   $      8,509,855,701 $    9,165,114,590 $     9,870,828,414 $ 10,630,882,202 $          11,449,460,131

H) Average Annual S Corporation
Profit Growth (Actual TY 1999                9.60%                  9.60%              9.60%               9.60%               9.60%                  9.60%
Through TY 2001)
I) Profits of Single-Shareholder S
Corporations Through TY 2005 (CY       $ 198,615,942,141    $ 217,683,072,587     $238,580,647,555    $261,484,389,720    $286,586,891,133    $    314,099,232,682
2006)
J) SECA OASDI Revenue as a
Percentage of Profits (SECA OASDI
Applied to Actual TY 2000 Operating          4.18%                  4.18%              4.18%               4.18%               4.18%                  4.18%
Profits, Including Officer
Compensation)
K) SECA HI Revenue as a
Percentage of Profits (SECA HI
Applied to Actual TY 2000 Operating          2.68%                  2.68%              2.68%               2.68%               2.68%                  2.68%
Profits, Including Officer
Compensation)
L) SECA OASDI Revenue
Anticipated (item J * item I)          $    8,296,204,959   $      9,092,640,635 $    9,965,534,136 $ 10,922,225,413 $ 11,970,759,053 $             13,119,951,922
M) SECA HI Revenue Anticipated
                                       $    5,319,232,854   $     5,829,879,208   $   6,389,547,612   $   7,002,944,183   $   7,675,226,825   $      8,412,048,600
(item K * item I)
N) Total SECA Revenue Anticipated
(item L + item M)                      $   13,615,437,813   $     14,922,519,843 $ 16,355,081,748 $ 17,925,169,596 $ 19,645,985,877 $               21,532,000,522

O) OASDI Revenue Loss (item L
minus item E)                          $    2,851,808,477   $      3,229,025,624 $    3,650,420,769 $     4,120,848,317 $     4,645,675,920 $        5,230,837,388
P) HI Revenue Loss (item M minus
item F)                                $    2,862,184,860   $      3,183,638,518 $    3,539,546,389 $     3,933,492,865 $     4,369,427,756 $        4,851,703,002
Q) Total Employment Tax Loss
(item O + item P)                      $    5,713,993,337   $      6,412,664,142 $    7,189,967,158 $     8,054,341,182 $     9,015,103,676 $       10,082,540,390
Source: TIGTA analysis of IRS data. Minor differences may result from the rounding of multiplicands.




                                                                                                                                                        Page 27
    Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                 Proprietorships and Single-Shareholder S Corporations

                         Table 2: Employment Tax Revenue Increases From Applying SECA Taxes
                                         to Single-Owner S Corporation Profits
                                          TY 2005             TY 2006             TY 2007             TY 2008             TY 2009
                                       DUE IN CY 2006      DUE IN CY 2007      DUE IN CY 2008      DUE IN CY 2009      DUE IN CY 2010            TOTAL

AA) Average Annual S Corporation
                                            7.70%               7.70%               7.70%               7.70%               7.70%                  N/A
Officer Compensation Growth
(Actual TY 1999 through TY 2001)

AB) Officer Compensation of Single-
                                    $ 122,770,537,850      $ 132,223,869,265   $142,405,107,198    $153,370,300,452    $165,179,813,587    $   715,949,628,353
Shareholder S Corporations
Through TY 2005 (CY 2006)

AC) FICA OASDI Revenue as a
Percentage of Profits (Actual TY            6.43%               6.43%               6.43%               6.43%               6.43%                  N/A
2000)
AD) FICA HI Revenue as a
Percentage of Profits (Actual TY            2.90%               2.90%               2.90%               2.90%               2.90%                  N/A
2000)
AE) FICA OASDI Revenue
                                      $    7,889,114,534   $   8,496,576,353   $   9,150,812,732   $   9,855,425,312   $ 10,614,293,061    $    46,006,221,992
Anticipated (item AC * item AB)
AF) FICA HI Revenue Anticipated
                                      $    3,560,345,598   $   3,834,492,209   $   4,129,748,109   $   4,447,738,713   $   4,790,214,594   $    20,762,539,222
(item AD * item AB)
AG) Total FICA Revenue
                                      $   11,449,460,131   $ 12,331,068,561    $ 13,280,560,841    $ 14,303,164,025    $ 15,404,507,655    $    66,768,761,214
Anticipated (item AE + item AF)

AH) Average Annual S Corporation
Profit Growth (Actual TY 1999               9.60%               9.60%               9.60%               9.60%               9.60%                  N/A
Through TY 2001)
AI) Profits of Single-Shareholder S
Corporations Through TY 2005 (CY      $ 314,099,232,682    $ 344,252,759,020   $377,301,023,886    $413,521,922,179    $453,220,026,708    $ 1,902,394,964,474
2006)
AJ) SECA OASDI Tax as a
Percentage of Profits (Actual TY            4.18%               4.18%               4.18%               4.18%               4.18%                  N/A
2000)
AK) SECA HI Tax as a Percentage             2.68%               2.68%               2.68%               2.68%               2.68%                  N/A
of Profits (Actual TY 2000)
AL) SECA OASDI Tax Amount
                                      $   13,119,951,922   $ 14,379,467,306    $ 15,759,896,167    $ 17,272,846,200    $ 18,931,039,435    $    79,463,201,029
Anticipated (item AJ * item AI)
AM) SECA HI Tax Amount
                                      $    8,412,048,600   $   9,219,605,266   $ 10,104,687,371    $ 11,074,737,359    $ 12,137,912,145    $    50,948,990,741
Anticipated (item AK * item AI)
AN) Total SECA Taxes Anticipated
                                      $   21,532,000,522   $ 23,599,072,572    $ 25,864,583,539    $ 28,347,583,558    $ 31,068,951,580    $   130,412,191,771
(item AL + item AM)

AO) OASDI Revenue Increase (item
                                  $        5,230,837,388   $   5,882,890,953   $   6,609,083,436   $   7,417,420,887   $   8,316,746,373   $    33,456,979,038
AL minus item AE)
AP) HI Revenue Increase (item AM
                                  $        4,851,703,002   $   5,385,113,057   $   5,974,939,262   $   6,626,998,646   $   7,347,697,551   $    30,186,451,519
minus Item AF)
AQ) Total Employment Tax Increase
                                  $       10,082,540,390   $ 11,268,004,010    $ 12,584,022,698    $ 14,044,419,533    $ 15,664,443,925    $    63,643,430,557
(item AO + item AP)
Source: TIGTA analysis of IRS data. Minor differences may result from the rounding of multiplicands.

To address concerns expressed by the IRS in response to this report regarding the impact of
single-shareholder S corporation owners who may have employment-taxable income from
multiple sources, we conducted further analysis. Such multiple sources of employment-taxable
income would include multiple single-shareholder S corporations owned by one individual and
wages received by the owner of a single-shareholder S corporation for services not related to the
single-shareholder S corporation. Multiple-source employment-taxable income would not
impact HI revenue which applies to all employment-taxable earnings. However, it could impact
OASDI taxes that in TY 2000 were assessed on only the first $76,200 of such income. SOI
records for TY 2000 indicate that 2 percent of single-shareholder S corporations are owned by
taxpayers that own more than 1 single-shareholder S corporation. Information was not available
regarding non-S corporation wage income for the owners of single-shareholder
S corporations, so we relied on data regarding sole proprietors to gauge the impact of
                                                                                                                                                   Page 28
   Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                Proprietorships and Single-Shareholder S Corporations

wage-related employment taxes on such income. The IRS Individual Return Master File
records for TY 2000 indicates that 5.9 percent of sole proprietors at least partially reduced their
self-employment taxes due to employment taxes paid on wages. To maximize the reduction
in our 5-year revenue increases, we added these percentages and assumed that the OASDI
increases would be completely eliminated for 7.9 percent of the owners of single-shareholder
S corporations whose OASDI increases involved employment-taxable income from multiple
sources. This reduced our original OASDI estimated increase to 92.1 percent (100 - 7.9) of the
original $33,456,979,038, resulting in a revised estimate of $30,813,877,694 in OASDI
increases.
Implications of Officer Compensation Allocation
The recipient of officer compensation from an S corporation is not identified on Forms 1120S or
the Schedules K-1 attached to those returns. As a result, it was necessary to make assumptions
regarding the amount of compensation (salary) paid to the sole owners or majority owners of the
corporations. For our calculations, we distributed officer compensation according to the
percentage of ownership shown on Schedules K-1 of Forms 1120S, as adjusted for spousal
ownership. The FICA taxes were then computed on the amount of officer compensation and the
SECA taxes were computed on the total profits available for distribution by the S corporation
(consisting of officer compensation plus nonofficer-compensation profits). The difference
between the FICA and SECA taxes was then calculated.
Implications for fully-owned S corporations: For S corporations owned by a single
shareholder, we allocated all officer compensation to the shareholder. If, as an extreme example,
all of the officer compensation was actually paid to someone other than the single shareholder,
the amount of FICA taxes paid by the single shareholder would be reduced to $0, leaving the
total amount of SECA taxes on the nonofficer compensation (business operating profits) as the
total difference between the FICA tax of $0 and SECA taxes that would be applied to the
business operating profits. In this case, the business profits of up to $76,200 (the Social Security
taxable limit) that were not subject to Social Security taxes for SECA purposes (because they
were above the Social Security Administration limit when officer compensation was added to
operating profits) would now be subjected to SECA taxes of 12.4 percent, which would increase
the difference between FICA taxes ($0 in this example) and SECA taxes.
Thus, our estimate of the amount of the increase in SECA taxes over FICA taxes may be
understated if all officer compensation was not paid to the single shareholder of an S corporation,
to the extent that decreasing the amount of officer compensation decreases the amounts we
considered subject to FICA taxation and concurrently increases the amounts we should have
considered subject to SECA taxation. Approximately 85 percent of the SECA tax increases we
computed were related to single-shareholder S corporations. Allocating no officer compensation
to the shareholders would add 44.9 percent to the tax increases we computed.
Implications for majority-owned S corporations: For multiple-shareholder
S corporations in which 1 shareholder owns more than 50 percent of the stock (and thus controls
the S corporation’s decision making), we allocated officer compensation to the majority

                                                                                             Page 29
   Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
                Proprietorships and Single-Shareholder S Corporations

shareholder by applying the shareholder’s percentage of ownership to the total amount of officer
compensation paid by the S corporation. The results from allocating too much officer
compensation to the majority shareholder would mirror those described for single-shareholder
S corporations. That is, if we assigned too much officer compensation to the majority
shareholder, it would cause the SECA tax increases we computed to be understated.
However, if more officer compensation was paid to the majority shareholder than we allocated,
the difference between the FICA taxes and SECA taxes we computed may be overstated to the
extent that increasing the amount of officer compensation increases the amounts we should have
considered subject to FICA taxation and decreases the amounts we considered subject to SECA
taxation. Approximately 15 percent of the SECA tax increases we computed were related to
majority shareholders in multiple-shareholder S corporations. Allocating all officer
compensation to the majority shareholders would reduce the SECA increases we computed for
these taxpayers by 10.1 percent. Allocating no officer compensation to the majority shareholders
would add 60.1 percent to the tax increases we computed.
In summary, if we underestimated the officer compensation attributable to sole owners or
majority owners of S corporations, our estimates of the SECA tax increases could be overstated
by as much as 1.5 percent. Conversely, if we overestimated the officer compensation
attributable to the sole owners or majority owners, our estimates of the SECA tax increases could
be understated by as much as 47.2 percent.




                                                                                         Page 30
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations

                                                                         Appendix V


                 Management’s Response to the Draft Report




                                                                               Page 31
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations




                                                                               Page 32
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations




                                                                               Page 33
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations




                                                                               Page 34
Actions Are Needed to Eliminate Inequities in the Employment Tax Liabilities of Sole
             Proprietorships and Single-Shareholder S Corporations




                                                                               Page 35
